IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50165

FILED
May 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
DAVID ANDREW DIEHL, also known as David A. Diehl,
Defendant-Appellant

Appeals from the United States District Court
for the Western District of Texas
USDC No. 1:16-CV-1124
USDC No. l:10-CR-297-l

Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
David Andrew Diehl, federal prisoner # 53214-018, was found guilty of
ten counts of producing child pornography under 18 U.S.C. § 2251(a), and he
was sentenced to serve a total of 600 months in prison and five years of
supervised release. The district court denied the 28 U.S.C. § 2255 motion he
filed to challenge these convictions and sentence, and he moves this court for
a certificate of appealability (COA) on claims concerning limitations, the

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-50165
jurisdictional nexus to support his conviction, his sentence, ineffective
assistance of counsel, Brady v. Maryland, 373 U.S. 83 (1963), and discovery.
He also argues that the district court erred by not holding an evidentiary
hearing.

His outstanding motions to supplement his COA motion are

GRANTED.
To obtain a COA, one must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy that burden, he must
show that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Slack v. McDaniel, 529 U.S. 473,
484 (2000), or that the issues he presents “are adequate to deserve
encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003).

Because Diehl has not met these standards, his COA motion is

DENIED. We construe the motion for a COA with respect to the district court’s
declining to hold an evidentiary hearing as a direct appeal of that issue, see
Norman u. Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and AFFIRM.

2

Sincerely,
LYLE W.

By:
Kenneth G. Lotz, Deputy Clerk
Enclosure(s)
Mr. David Andrew Diehl
Mr. Joseph H. Gay Jr.

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-50165

May 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
DAVID ANDREW DIEHL, also known as David A. Diehl,
Defendant-Appellant

Appeals from the United States District Court
for the Western District of Texas
USDC No. 1:16-CV-1124
USDC No. l:10-CR-297-l

Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
David Andrew Diehl, federal prisoner # 53214-018, was found guilty of
ten counts of producing child pornography under 18 U.S.C. § 2251(a), and he
was sentenced to serve a total of 600 months in prison and five years of
supervised release. The district court denied the 28 U.S.C. § 2255 motion he
filed to challenge these convictions and sentence, and he moves this court for
a certificate of appealability (COA) on claims concerning limitations, the

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

ol> ^
A t' f e ^ - ‘ >;

A

No. 19-50165
jurisdictional nexus to support his conviction, his sentence, ineffective
assistance of counsel, Brady v. Maryland, 373 U.S. 83 (1963), and discovery.
He also argues that the district court erred by not holding an evidentiary
hearing.

His outstanding motions to supplement his COA motion are

GRANTED.
To obtain a COA, one must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy that burden, he must
show that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Slack v. McDaniel, 529 U.S. 473,
484 (2000), or that the issues he presents “are adequate to deserve
encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003).

Because Diehl has not met these standards, his COA motion is

DENIED. We construe the motion for a COA with respect to the district court’s
declining to hold an evidentiary hearing as a direct appeal of that issue, see
Norman v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and AFFIRM.

2

Sincerely,
LYLE W. CAYCE, Clerk

By:
Kenneth G. Lotz, Deputy Clerk
Enclosure(s)
Mr. David Andrew Diehl
Mr. Joseph H. Gay Jr.

Case: 19-50165

Document: 00515560805

Page: 1

Date Filed: 09/11/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-50165
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.

DAVID ANDREW DIEHL, also known as David A. Diehl,
Defendant - Appellant

Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING
Before HAYNES. GRAVES and ENGELHARDT, Circuit Judges,
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

5*

ENTERED FOR THE COURT:

UNITED

exhuMs/t*

B

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
. Suite 115

October 07, 2020
#53214-018
Mr. David Andrew Diehl
USP Coleman II
846 N.E. 54th Terrace, P.O. Box 1034
Coleman, FL 33521-0000
No. 19-50165

USA v. David Diehl
USDC No. 1:16-CV-1124

Dear Mr. Diehl,
We are responding to your correspondence received September 28,
2020.
The Court's opinion issued on May 6, 2'020. Any petition for
panel rehearing and/or petition for rehearing en banc was due
for filing by not.later than June 20, 2020. The Court granted
as extension of time to file a petition for rehearing until June
29, 2020.
The Court received the petition for panel rehearing on June 8,
2020.
A second extension to file a petition for rehearing en
banc was filed on June 26, 2020 and denied on July 2, 2020.
Because the time had expired to file a petition for rehearing en
banc the petition for panel rehearing was submitted to the court
on July 2, 2020. As previously advised in the Court's August
30, 2020 notice the time to file and submit a petition for
rehearing en banc had expired.
The petition for panel rehearing was denied on September 11,
2020.
The Court has issued its final ruling.
Forthcoming submissions
in this appeal will neither be addressed nor acknowledged.
Sincerely,
LYLE W. CAYCE, Clerk

~}'LBy:
Claudia N. Farrington, Deputy Clerk
504-310-7706
cc:

Mr. Joseph H. Gay Jr.

A P P & 'y ^ tX C

